Appellate Case: 21-5002

Document: 010110486315

Date Filed: 03/01/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal
Tenth Circuit

FOR THE TENTH CIRCUIT

March 1, 2021
Christopher M. Wolpert
Clerk of Court

In re: BO ZOU,

No. 21-5002
(D.C. No. 4:19-CV-00554-JFH-JFJ)
(N.D. Okla.)

Petitioner.

• •if*

ORDER
Before TYMKOVICH, Chief Judge, PHILLIPS and CARSON, Circuit Judges.

Bo Zou, proceeding pro se, requests a writ of prohibition requiring United
States Magistrate Judge Jodi F. Jayne to disqualify herself from Zou’s pending civil
action in the United States District Court for the Northern District of Oklahoma. A
writ of prohibition is an appropriate vehicle to challenge a judge’s refusal to
disqualify herself. See Nichols v. Alley, 71 F.3d 347, 350 (10th Cir. 1995) (per
curiam) (“[Mjandamus is an appropriate vehicle by which to challenge a district
court’s denial of a recusal motion.”); Sangre de Cristo Cmty. Mental Health Serv.,
Inc. v. United States (In re Vargas), 723 F.2d 1461, 1468 {10th Cir. 1983) (equating
writs of probation and writs of mandamus). However, the petitioner “must
demonstrate a clear abuse of discretion, or conduct by the district court amounting to
a usurpation of judicial authority.” Nichols, 71 F.3d at 350. Prohibition, like
mandamus, is available only upon a showing of a clear and indisputable right to
relief.” Id.

APPENDIX "A"

al

Appellate Case: 21-5002

Document: 010110486315

Date Filed: 03/01/2021

Page: 2

Zou argues that the magistrate judge’s rulings against him on numerous
discovery-related disputes demonstrate bias. Zou ignores the magistrate judge’s
rulings in his favor, but regardless, judicial rulings alone almost never constitute a
valid basis for a bias or partiality motion,” Liteky v. United States, 510 U.S. 540, 555
(1994). Zou also misunderstands many of the magistrate judge’s typical
case-management procedures as evidence of bias, which they are not.
Zou has not demonstrated his entitlement to prohibition relief. We therefore
deny his petition. We grant his motion to proceed in forma pauperis.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

2

a2

.

~ —

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.
.

LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19-CV-554-JFH-JFJ

OPINION AND ORDER
Before the Court are numerous pending discovery motions and/or motions referred to the
undersigned for disposition. (ECF Nos. 18, 40, 42, 51, 54, 60, 80, 86, 89, 94).'
I.

Defendant’s Request for Special Discovery Management Order (ECF No. 80, Part
VIII.F, referred by ECF No. 92)
In the Status Report filed July 24, 2020, Defendant requests that both parties be limited to

four fact witness depositions and that Plaintiff be required to seek leave of Court before serving
any additional written discovery requests on Defendant. ECF No. 80 at 8-9.2 Upon referral of this
issue, the Court gave Plaintiff the opportunity to respond. ECF No. 103. Plaintiff objects to any
limits on the number of depositions, arguing that all ten proposed deponents have relevant
information and that ten depositions is proportional to the needs of the case. Plaintiff also argues
that Defendant should not be permitted to change its original position, which was that each party
could conduct a range of six to ten fact-witness depositions. See ECF No. 16 at 5.

i

Plaintiffs Motion for Contempt (ECF No. 89) has not been expressly referred but relates to
Defendant’s alleged discovery failures. The Court rules on this motion pursuant to General Order
05-09, which refers all discovery matters in civil cases to the assigned magistrate judge.
2 The Court addresses Defendant’s request to prohibit or limit further written discovery in the
context of the Motion for Protective Order addressed infra Part VII.

APPENDIX "B"

. a3

“

—

Federal Rule of Civil Procedure 26(b)(2)(A) provides that “[b]y order, the court may alter
the limits in these rules on the number of depositions and interrogatories or on the length of
depositions under Rule 30. By order or local rule, the court may also limit the number of requests
under Rule 36.” Rule 26(b)(2)(C)(i) and (iii) provide that the Court must limit discovery if it
determines that the proposed discovery is “unreasonably burdensome or duplicative” or “outside
the scope permitted by Rule 26(b)(1),” i.e., not relevant or proportional to the needs of the case.
Proportionality requires consideration of “the importance of the issues at stake in the action, the
amount in controversy, the parties’ relative access to relevant information, the parties’ resources,
the importance of the discovery in resolving the issues; and whether the burden or expense of the
proposed discovery outweighs its likely benefit.” Fed. R. Civ. P. 26(b)(1).
This is an employment discrimination case that will turn on whether Plaintiff was subject
to discriminatory treatment during a reduction in force. The Court is familiar with Plaintiffs
theory of the case, Defendant’s defenses, and the damages at issue, based on: (1) the Court’s review
of written discovery requests by both parties, (2) Plaintiffs proposed deponents and Plaintiffs
description of their proposed testimony, and (3) the two Joint Status Reports setting forth detailed
factual summaries. After consideration of the likely benefit of ten fact witness depositions,
compared to the burden and expense of permitting that number of depositions, the Court finds
Plaintiff s requested number to be excessive and finds Defendant’s proposed limit to be reasonable
and proportional.
Contrary to Plaintiff s arguments, Defendant permissibly changed its position regarding
the number of depositions that should be allowed between the time of filing the original Joint
Status Report on January 8, 2020, and the second Status Report, on July 24, 2020. The district
judge first assigned to the action did not set a schedule or rule on any issues presented in the
original Joint Status Report. When the case was reassigned to a new district judge, he ordered a
2

a4

.

w^w

w

new report for the purpose of setting a schedule. The reassigned district judge was well within his
discretion to order a new status report and refer any discovery management issues presented
therein. In turn, Defendant was entitled to propose new discovery limits and deadlines, based on
developments in the case during this time.
Defendant’s Request for Special Discovery Management Order (ECF No. 80, Part VIII.F)
is GRANTED. Exercising its discretion under the above rules, the Court initially limits both
parties to four fact witness depositions. The parties may seek relief from this deposition limit, but
only after conducting the number of authorized depositions and upon a showing of good cause.
II.

Defendant’s Motion to Quash and for Protective Order (ECF Nos. 51, 54)
These motions seek a protective order pursuant to Federal Rule of Civil Procedure 26(c),

for the purpose of preventing the ten depositions noticed by Plaintiff for the week of June 23,2020.
The Court granted Defendant’s motion to stay the depositions pending the Court’s ruling on this
Motion to Quash and for Protective Order. See ECF No. 58.
The Court has now placed limits on the number of fact-witness depositions pursuant to
Rule 26(b)(2)(A), as requested by Defendant.

Plaintiff shall inform Defendant of his four

requested deponents no later than one week from the date of this Order, and the parties shall confer
regarding these depositions. With the limits imposed, the parties may be able to resolve further
disputes, and the Court denies the current motion without prejudice to refiling. The Court finds
inadequate justification to conduct these depositions at the courthouse, as requested by Defendant,
and will permit any depositions to proceed at the office building selected by Plaintiff.
Defendant’s Motion to Quash and for Protective Order (ECF No. 51, 54) is DENIED as
moot, without prejudice to refiling.

3

a5

III.

Plaintiffs Motion to Compel and for Sanctions (ECF No. 60)
This motion relates to Plaintiffs third set of requests for production and second set of

Interrogatories, which were served on April 6, 2020. Plaintiff moves to compel Request for
Production (“RFP”) 1, 2, 3, & 5 and Interrogatory (“ROG”) 20.
RFP 1, 2. 5 - Denied. The Court granted Plaintiffs motion to compel ESI, including emails
relevant to the case, by identifying two custodians and ordering Defendant to search certain terms.
The Court outlined the scope of proportional ESI discovery, and this is an attempt by Plaintiff to
circumvent that ruling with additional requests. Further, with respect to RFP 2, Defendant already
produced responsive documents and has re-run its search to determine if further

responsive

documents exist.
RFP 3, ROG 20 — Denied. Plaintiff now has the entire employment history for Sharp and Duncan.
Defendant has explained that the word “tenured” did not refer to any specific promotion, but
instead referred to these two employees being senior to Plaintiff at the time of the reduction in
force. Defendant need not produce further documents or provide further explanation.
Plaintiffs Motion for Sanctions is premised on Defendant’s delay in producing a signed
verification, which has now been produced.
Plaintiff s Motion to Compel and for Sanctions (ECF No. 60) is DENIED.
IV.

Plaintiffs Motion to Compel and for Sanctions (ECF No. 86) and Plaintiffs Motion
for Contempt (ECF No. 89)
This motion relates to Plaintiff s fourth set of requests for production, which were served

on May 11, 2020. Plaintiff moves to compel RFP 5 and 6.
RFP 5 - Denied. This request for communications between Defendant and ICC has already b
een
denied by the Court, and the Court maintains its prior ruling.

4

a6

.

BJP 6

WVJJ w

w

Denied. Defendant is not withholding responsive documents and represented that it will

produce any responsive documents in its possession, custody, or control.
Plaintiff s requests for sanctions and contempt are based on Defendant’s alleged perjury in
discovery responses, falsifying documents, failing to meet deadlines, and failing to produce
documents ordered by the Court. The Court has reviewed the correspondence between the parties,
including emails from Plaintiff requesting additional documents or discovery, and responding
emails from Defendant. Following is an example of a response from Defendant:
On RFP’s 2, 3, 4, and 7, you cannot agree to narrow the request for production and
then attempt to have Defendant “follow Plaintiffs requirements” as set forth in the
original RFP’s. We have complied with the Court’s order and produced all
documents as ordered by the Court. On RFP 21, as I’ve said repeatedly, we do not
have any additional documents responsive to this request. For the balance of your
email, we have produced all email correspondence that references you, your
performance, your complaint, and your termination in compliance with the Court’s
order.
ECF No. 94-1.
Upon review of the correspondence submitted by both parties and Defendant’s discovery
responses, the Court finds no grounds for imposing sanctions upon Defendant or holding
Defendant in contempt. The Court finds no cogent or persuasive argument that Defendant has
misled the Court, fabricated evidence, failed to comply with Court orders, or otherwise engaged
in anything resembling sanctionable or bad-faith litigation conduct.
Plaintiffs Motion to Compel and for Sanctions (ECF No. 86) and Plaintiffs Motion for
Contempt (ECF No. 89) are DENIED.
V.

Plaintiffs Motion for Change of Magistrate Judge (ECF No. 40)
Plaintiffs Motion for Change of Magistrate Judge, which expressly references 28 U.S.C.

§ 455(a), was referred to the undersigned. Plaintiff seeks the undersigned’s disqualification based
on the following: (1) displaying a “high favoritism to Defendant and antagonism to Plaintiff’ in

5

a7

.

w

the undersigned’s ruling on discovery motions on May 19, 2020; and (2) permitting Defendant to
submit an ex parte letter to the Court in support of its assertion of privilege. See ECF No. 4.
The recusal statutes require a judge to disqualify himself if “his impartiality might
reasonably be questioned,” or if “he has a personal bias or prejudice concerning a party.” 28 U.S.C.
§ 455(a) & (b)(1). A judge must recuse himself when there is the appearance of bias, regardless
of whether there is actual bias. Bryce v. Episcopal Church in the Diocese of Colo., 289 F.3d 648,
659 (10th Cir. 2002). “The test is whether a reasonable person, knowing all the relevant facts,
would harbor doubts about the judge’s impartiality.” Id. The “recusal statute should not be
construed so broadly as to become presumptive or to require recusal based on unsubstantiated
suggestions of personal bias or prejudice.” See Switzer v. Berry, 198 F.3d 1255, 1258 (10th Cir
2000). The decision to recuse is committed to the sound discretion of the district court, and the
movant bears a substantial burden to demonstrate the judge is not impartial. United States v.
Burger, 964 F.2d 1065, 1070 (10th Cir. 1992).
The undersigned has no relationship with Defendant, its lawyers, or its witnesses
Plaintiff’s assertions of bias are based on the undersigned’s substantive discovery rulings. The
undersigned will briefly address these frivolous arguments. First, a review of the May 19, 2020,
discovery Order reveals no bias in favor of Defendant or against Plaintiff. The undersigned granted
Plaintiffs motion to compel in part and ordered Defendant to produce a significant amount of ESI
over its objection. The undersigned found that language used by Plaintiff in a letter to a third party
was threatening and inappropriate, caused the Court concern about Plaintiffs abuse of the
discovery process, and warranted a limited protective order regarding third-party subpoenas.
However, these rulings were based on the facts and law presented, rather than based on bias.
Second, permitting ex parte submission of allegedly privileged documents does not show
favoritism. In the motion to compel, Plaintiff successfully argued that Defendant’s assertion of
6

a8

■

•

work-product privilege was improper, based on information in Defendant’s privilege log. The
Court agreed with Plaintiff and ordered Defendant to produce the documents to Plaintiff, or submit
further information ex parte in support of its privilege assertion. Defendant elected to produce the
documents to Plaintiff rather than further pursue its privilege assertion, and Plaintiff prevailed on
this issue. The undersigned’s impartiality cannot reasonably be questioned based on discovery
rulings or other facts.
Plaintiffs Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.
VI.

Plaintiffs Motions for Chinese (Mandarin) Translator (ECF Nos. 18, 42)
Upon filing his Complaint, Plaintiff requested a Chinese translator. The district judge

originally assigned to the case stated in a minute order: “There are no hearings set at this time, and
the plaintiffs Complaint is coherent and is filed in English. As the litigation progresses, if a
translator becomes necessary for purposes of accommodating plaintiffs accent (e.g. during
deposition, court hearings) or for any other reason, the Court will consider a renewed motion for
appointment of a translator.” ECF No. 9. In his first renewed motion, Plaintiff “requests that the
Court find a Chinese (Mandarin) translator for the case hearing and trial because of plaintiffs
some English accent.” ECF No. 18. In his second motion, requests a translator at a hearing
requested by Plaintiff in ECF No. 41. These two motions were referred to the undersigned.
The Court has not scheduled or conducted any pretrial hearings.

Plaintiffs briefs

demonstrate his strong command of the English language, and Plaintiff has fully and adequately
represented himself on all issues. Plaintiff has suffered no prejudice based on the Court’s failure
to appoint a translator. To the extent Plaintiff requests a translator for purpose of the specific
hearing requested in ECF No. 41, the motion is denied as moot, because the district judge did not
schedule a hearing on the motion.

7

a9

■

To the extent Plaintiff is requesting that the Court appoint a translator for trial, depositions,
or hearings that may be scheduled in the future, the Court denies the motion. Pro se parties in civil
cases are generally not entitled to a court-provided translator. See Desulma v. Goolsby, No.
98CIV.2078(RMB)(RLE), 1999 WL 147695, at *1 (S.D.N.Y. Mar. 16, 1999) (“In general, a pro
se civil plaintiff is not entitled to an interpreter or translator.”); Vargas-Rodriguez v. Ortiz, No. CV
18-2628(RMB), 2019 WL 2366968, at *6 (D.N.J. June 5,2019) (collecting cases). Plaintiff elected
to file the lawsuit, Plaintiff is not indigent, and Plaintiff shall be required to locate and provide his
own translator for future court proceedings at which he desires the presence of a Chinese
translator.3
VII.

Defendant’s Motion for Protective Order (ECF No. 94)
In this motion for protective order, which was filed August 11, 2020, Defendant seeks a

protective order that (1) requires Plaintiff to seek leave of Court before filings any further pleadings
or motions; (2) requires Plaintiff to seek leave of court before serving Defendant with any
additional discovery requests or notices of depositions; and (3) excuses Defendant’s obligation to
respond to ECF Nos. 85, 86, and 89. ECF No. 94 at 6-7. On August 12, 2020, by minute order,
the Court excused Defendant’s response obligations and prohibited Plaintiff from filing further
motions on a temporary basis, until the Court had the opportunity to rule on Defendant’s motion
for protective order. ECF No. 95.4 The Court then ordered Plaintiff to respond to the motion for
protective order, and Plaintiff filed a substantive response. ECF No. 104. Plaintiff argues that

3 This ruling may be revisited at the time of any scheduled hearing or trial, or upon assessing the
difficulty of conducting proceedings if Plaintiff fails to provide his own translator. This ruling
will not be revisited for purposes of depositions.
4 This minute order was not intended as a permanent filing restriction or other sanction. Instead,
it was intended to pause Plaintiff s filings while the Court resolved the motion for protective order
and numerous other motions. This effort was largely unsuccessful, as Plaintiff filed six different
“objections” following the Court’s minute order. ECF Nos. 100-105.
8

a!0

Defendant has been “abusing protective orders” and that Defendant has blatantly misled the Court
on numerous occasions. Id. at 1.
The Court may issue a protective order to protect a party from annoyance, embarrassment,
oppression, or undue burden or expense in responding to discovery. Fed. R. Civ. P. 26(c)(1);
Boughton v. Cotter Carp., 65 F.3d 823, 829-30 (10th Cir. 1995) (“Rule 26(c) is broader in scope
than the attorney work product rule, attorney-client privilege and other evidentiary privileges
because it is designed to prevent discovery from causing annoyance, embarrassment, oppression,
undue burden or expense not just to protect confidential communications.”).
Defendant has adequately shown the need for protection from undue burden in relation to
Plaintiffs discovery practices. To be clear, Plaintiff has filed non-frivolous discovery motions,
including his original motion to compel discovery responses. However, following the Court’s
ruling on his first motion to compel, Plaintiff filed several frivolous motions to compel burdensome
and repetitive discovery requests that directly contradict this Court’s orders. In total, Plaintiff has
now issued eleven different sets of discovery, including five sets of requests for production.
Plaintiff has also filed frivolous motions for sanctions and contempt, accusing Defendant of
deceitful and sanctionable discovery conduct without justification. Plaintiff has also objected to
every unfavorable ruling issued by the Court, requiring Defendant to respond to frivolous
objections. This has posed an undue burden on Defendant and the Court’s docket.
Based on Plaintiff s conduct to date, the Court finds good cause for issuance of a limited
protective order pursuant to Rule 26(c)(1) to manage discovery, avoid unnecessary expense, and
avoid burdensome discovery-related motion practice. The Court issues a protective order that
prohibits Plaintiff from: (1) issuing any further written discovery requests to Defendant, either in
the form of interrogatories or requests for production, absent leave of Court; or (2) filing further
motions for contempt or sanctions in relation to any of Defendant’s written discovery responses.
9

all

•

w

—

Defendant is excused from filing responses to ECF Nos. 85, 86, and 89, which the Court finds to
be frivolous discovery-related motions that do not require a response.
The Court lifts the prohibition on Plaintiffs ability to file motions. See ECF No. 95. At
this time, the Court declines to impose any permanent filing restrictions as a sanction under Federal
Rule of Civil Procedure 11 or to invoke the Court’s inherent powers to control abusive litigation
conduct. See generally Hutchinson v. Hahn, No. 05-CV-453-TCK PJC, 2007 WL 2572224, at-*5
(N.D. Okla. Sept. 4, 2007) (explaining Rule 11 sanctions, court’s inherent power to impose
sanctions, and notice requirements prior to imposing sanctions). The Court declines to do so for
two reasons. First, Defendant’s motion was styled as one for protective order and did not expressly
reference “sanctions” in the title, causing a potential notice problem. Second, the motion was
automatically referred to the undersigned because it was styled as a motion for protective order.
Any motion for Rule 11 sanctions, or sanctions under the Court’s inherent power, are within the
province of the district judge, absent an express referral. If Defendant seeks to impose sanctions
against Plaintiff under Rule 11 or otherwise, it shall file a properly styled motion that clearly
triggers procedural rules governing such motions.
VIII. Conclusion
It is hereby ORDERED that:
1. Defendant’s request for special discovery management limitations (ECF No. 80, Part
VIII.F, referred by ECF No. 92) is GRANTED. The Court imposes a discovery
management limit of four (4) fact witness depositions for both parties.
2. Defendant’s Motion to Quash and for Protective Order (ECF Nos. 51, 54) are
DENIED without prejudice to refiling.
3. Plaintiffs Motion to Compel and for Sanctions (ECF No. 60) is DENIED.
4. Plaintiff s Motion to Compel and for Sanctions (ECF No. 86) and Plaintiffs Motion
for Contempt (ECF No. 89) are DENIED.
5. Plaintiffs Motion for Change of Magistrate Judge (ECF No. 40) is DENIED.
10

a!2

w -

6. Plaintiff’s Motions for Chinese (Mandarin) Translator (ECF Nos. 18,42) are DENIED.
7. Defendant’s Motion for Protective Order (ECF No. 94) is GRANTED in part, and the
Court enters the following protective order. Plaintiff is prohibited from:
(1) issuing any further written discovery requests to Defendant, absent leave of
Court; and
(2) filing any further motions for contempt or sanctions in relation to any of
Defendant’s current discovery responses.5
8.

The Court declines to impose the sanction of filing restrictions at this time, and the
temporary restriction imposed by ECF No. 94 is lifted.

SO ORDERED this 21st day of September, 2020.

MAG
RATE JUDGE
UNITED STATES DISTRICT COURT

5 The Court’s prior Protective Order, which requires Plaintiff to seek leave of court to issue thirdparty subpoenas and avoid threatening or harassing behavior to third parties, also remains in place.

11

a!3

Case 4:19-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.

Case No. 19-cv-00554-JFH-JFJ

LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.
ORDER
Before the Court is the Motion for Objecting to the Court Order to Refer “Plaintiffs Motion
for Change of Magistrate Judge” to Magistrate Judge Herself (“Motion”) [Dkt. No. 85] filed by
Plaintiff Bo Zou (“Plaintiff’). Plaintiff filed a Motion for Change of Magistrate Judge [Dkt. No.
40] citing 28 U.S.C. § 455(a). Dkt. No. 40 at 1. The cited statute governs the recusal of “
justice, judge, or magistrate judge of the United States

any

.” 28 U.S.C. § 455(a). Additionally,

the statute provides that the judge “shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” Id (emphasis added). The statute does not provide
a means for a district judge to disqualify a magistrate judge. Therefore, this Court appropriately
referred the Motion for Change of Magistrate Judge to Magistrate Judge Jayne to be considered
pursuant to Section 455. Dkt. No. 83.
As an initial matter, the Motion is moot as Judge Jayne has already considered Plaintiffs
Motion for Change of Magistrate Judge. Dkt. No. 109. Furthermore, Plaintiff cites

no authority

for his position that the Court should reassign a different magistrate judge to his case. See Dkt.
No. 85 at 1. Judge Jayne has determined recusal is not appropriate here, and Plaintiff is not entitled
to choose the judge assigned to his case. “Litigants, either civil or criminal, have no right to choose

APPENDIX "C"

a!4

Case 4:l9-cv-00554-JFH-JFJ Document 142 Filed in USDC ND/OK on 12/14/20

Page 2 of 2

the judge to whom their case is assigned, unless for some reason that particular judge is disqualified
from hearing the case.” United States v. Burney, No. 07-cr-137, 2012 WL 273922, at *3 (S.D.
Ohio Jan. 31, 2012); McCuin v. Texas Power & Light Co. 714 F.2d 1255, 1265 (5th Cir. 1983)
(“Judges do not choose their cases, and litigants to do not choose their judges ”).
Furthermore, the Court has reviewed Plaintiffs Motion for Objecting to Magistrate Judge’s
Opinion and Order, and Motion to Deny or Remove Magistrate Judge’s Injunctions [Dkt. No. 114]
wherein Plaintiff argued Judge Jayne’s decision to not recuse herself was clearly erroneous and
contrary to law. See Dkt. No. 114 at 9-11. The Court concluded Judge Jayne’s decision was not
clearly erroneous or contrary to law.
IT IS THEREFORE ORDERED that Plaintiffs Motion for Objecting to the Court Order
to Refer “Plaintiffs Motion for Change of Magistrate Judge” to Magistrate Judge Herself [Dkt.
No. 85] is DENIED.
IT IS FURTHER ORDERED that the case remains stayed pending resolution of this
Court’s ruling on Defendant’s Motion for Sanctions [Dkt. No. 112], See Dkt. No. 130.
DATED this 14th day of December, 2020.

johnp: heil, hi
UNITED STATES DISTRICT JUDGE

2

'

a!5

Case 4:19-CV-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,
Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. 19-CV-554-JED-JFJ

ORDER
Before the Court are: (1) Plaintiffs motions to compel written discovery responses from
Defendant (ECF Nos. 22, 24, 30, 31); (2) Plaintiffs motion to compel responses to a third-party
subpoena issued to Alex Alexandrov, of ICC Northwest (“ICC”), which is within Plaintiffs
response to Defendant’s motion to quash (ECF No. 25 at 9);' and (3) Defendant’s motion to quash
the subpoena to ICC and for sanctions or a protective order (ECF No. 19, 20).
I.

Background
Plaintiff, appearing pro se, sued his former employer, Defendant Linde Engineering North

America, under Title VII of the Civil Rights Act for age discrimination, race discrimination, and
retaliation. Plaintiff worked for Defendant for less than a year from October of 2018 to August of
2019. Plaintiff, who is Asian American, alleges he was “treated differently than other similarly
situated White and younger employees.” ECF No. 1 at 2. He further asserts a retaliation claim,
alleging that on “5/10/19 I communicated with vice president, Mr. David Close and highlighted

i

In the interest of efficiency and preserving resources of the parties and ICC, the Court excuses
Plaintiff s failure to file a separate motion and will address Plaintiffs motion to compel the ICC
documents on the merits. The Court denies the motion and finds no need for ICC to file a respo nse
brief.

APPENDIX "D"

a!6

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 2 of 12

the unfair treatment. However, in less than three months of my complaints I was selected for a
company wide reduction in force.” Id. Plaintiff further explained the factual bases for his clai ms
in the Joint Status Report. Plaintiff states that: (1) he was excluded from trainings and project
meetings while younger engineers named Kenny Sharp and Dustin Duncan were not; (2) he was
retaliated against by his supervisor, Jerry Gump, after complaining about unfair treatment by
Gump, and after reporting “big mistakes” by Sharp in relation to specific projects; and (3) he was
selected for a reduction m force based on his race, age, and in retaliation for raising complaints.
ECF No. 16 at 1-3.
Plaintiff has issued at least two sets of discovery requests, including requests for
production, interrogatories, and requests for admission. See ECF Nos. 22-1 (47 requests for
production); ECF No. 30-1 (10 additional requests for production); 30-2 (17 interrogatories); 303(13 requests for admission). Defendant has produced documents and a privilege log. Defendant
lodged numerous objections to Plaintiffs discovery requests, and Plaintiff filed the two pending
motions to compel complete responses from Defendant.
Plaintiff also issued a third-party subpoena to Mr. Alex Alexandrov, of ICC Northwest
(“ICC”). By email from ICC’s in-house counsel to Plaintiff, ICC objected to the subpoena. ECF
No. 19-10. Defendant filed the pending motion to quash based on procedural deficiencies.
Defendant also seeks sanctions or a protective order, due to threatening language by Plaintiff in an
email sent to ICC’s in-house counsel. In his response to Defendant’s motion to quash, Plaintiff
moved to compel responses from ICC.
II.

Plaintiffs Motions to Compel Discovery Responses from Defendant
As an initial matter, the Court declines to deny the motion based on any failure to meet and

confer as to specific requests and reaches the merits of the motions.

2

a!7

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 3 of 12

A.

First Motion to Compel (ECF No. 22)

RFP 2, 3, 4, 7, 36: Granted, as limited by Plaintiff. Plaintiff limited requests 2, 3, 4, and
7 to “cryogenic piping class specifications C40 and C60 on March 2 & 3, 2020.” ECF No. 22 at
4. Plaintiff limited RFP 36 to production of two “shop skid” photographs for an XTO project,
which were sent to Plaintiff by email from Eric Cantos. Plaintiff argues these piping specifications
and photographs are relevant to showing that his work performance was excellent, while younger
engineers made mistakes on projects. Defendant contends these documents are irrelevant and that
they are confidential information of Defendant and its customers.
Plaintiffs general work performance in comparison to younger employees that were not
laid off may be relevant to the issue of pretext. See Pippin v. Burlington Res. Oil And Gas Co.,
440 F.3d 1186, 1193 (10th Cir. 2006) (explaining methods of demonstrating pretext in RIF case,
where plaintiff argued that RIF was manipulated in light of plaintiffs “good performance”). These
requests are specific, not overbroad, and Plaintiff has already viewed these documents. Defendant
shall only be compelled to produce the documents subject to a protective order, in order to protect
any confidential information and prevent use of the information for purposes other than the
litigation.
RFP 6: Granted, no objection.
RFP 9-14. Denied. These broad requests for Plaintiffs’ email communications with other
individuals and/or groups of individuals are aimed at discovering performance-related information
that will permit comparison between Plaintiff and younger employees.
Although performance information is relevant, these requests are vague and an overly
broad fishing expedition that will result in production of significant amounts of irrelevant business
communications. It is unclear whether Plaintiff is requesting Defendant search for only those

3

a!8

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20

Page 4 of 12

emails where all listed individuals were included as recipients, or all emails between Plaintiff and
each listed individual. Under either interpretation, the majority of emails that would be searched
for, reviewed, and produced are unlikely to contain any specific or clear performance-related
information, such as a performance review. Instead, Plaintiff appears to be seeking all emails
about a significant number of particular projects, so that he can show younger engineers made
technical mistakes. While there may be some relevant performance-related information within
these requested communications, the Court finds the requests vague, facially overbroad, and not
proportional to the needs of the case, considering all Rule 26(b)(1) factors.
The Court cannot discern or craft reasonable limits to place on RFP 9-14 that would render
the requests reasonable and proportional. Further, Plaintiff was terminated during a RIF and not
for performance-related issues. Although performance information may be relevant to the issue
of pretext, it is of less importance to the needs of the case than discussion of Plaintiff following
his complaint, as requested in RFP 15-19.
RFP 15-19: Granted in part and denied in part. These broad requests are for email
communications sent by numerous employees that mention Plaintiff. According to Plaintiff, these
requests are aimed at: (1) determining Defendant’s “internal response” after Plaintiffs complaint
in May 2019, and (2) whether Gump “asked other employees to isolate Plaintiff from the emails.”
ECF No. 22 at 6. Discussion of Plaintiff after his complaints about Gump are directly relevant to
retaliation and other issues in the case, and it is not overly speculative that relevant information
regarding Plaintiff would be contained in internal communications following such complaint.
As a reasonable limit on Requests 15-19, which are vague and would require extensive ESI
searches, the Court orders Plaintiff to provide the names of two custodians, or individuals within
the company, whose email accounts are most likely to contain relevant information. Defendant

4

a!9

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 5 of 12

shall search these custodians’ email accounts for the identifying terms listed in the current requests
during the limited time period of May 6, 2019 (the date of the complaint) and August 17, 2019
(the date of termination). This is a proportional ESI search for the information requested in RFP
15-19, considering all Rule 26(b)(1) factors. The documents may be produced pursuant tp a
protective order.
RFP 20,23,24: Granted in part and denied in part. As to these requests, Plaintiff contends
Defendant has improperly withheld certain documents as privileged, has lied about not possessing
responsive documents, has doctored certain documents, and has otherwise engaged in bad-faith
discovery conduct. Plaintiff requests various forms of relief, including physical inspection and
production in different formats.
The Court finds Defendant has not engaged in any intentional misrepresentations to
Plaintiff or other bad-faith discovery conduct. Defendant produced documents, cooperated with
Plaintiff, and made efforts to understand his positions. Therefore, the Court denies Plaintiffs
requests for physical inspection of the documents and/or for production of documents in any
different format. The Court addresses Plaintiff s challenges to privilege assertions below.
RFP 21: Granted in part. Defendant is ordered to provide additional documents, if any
exist, showing money contributed or any other financial benefits provided to Plaintiff in relation
to insurance.
RFP 26: Granted. As explained and limited in Plaintiffs motion, this request seeks emails
and meeting records discussing a specific project in which Sharp, a younger, retained employee,
allegedly made mistakes regarding long pattern ball valves and short pattern ball valve issues. This
was discussed in Plaintiffs internal complaint in May of 2019. The Court finds the information
relevant to pretext, not overly broad, and proportional to the needs of the case, as limited by the

5

a20

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 6 of 12

Court. Defendant shall conduct a reasonable search for emails, memos, or meeting records during
January and February of 2019 discussing Sharp, the Crestwood project, and ball valve issues.
These documents may be produced pursuant to a protective order.
RFP 27: Denied. This request is vague and not a proper request for production.
RFP 28: Denied. Based on Plaintiffs behavior in relation to ICC, which is discussed
below, the Court has concerns about providing Plaintiff the last known addresses and phone
numbers of eight of Defendant’s former employees. The Court shares Defendant’s concerns that
Plaintiff will harass the individuals during the discovery process. Further, Plaintiff failed to
explain what relevant information these individuals may have. Under these circumstances, the
Court finds Defendant’s interest in protecting third parties’ personal information and privacy
outweighs Plaintiff s need to obtain the personal contact information.
RFP 32: Granted in part. Defendant shall provide job descriptions, if any exist, for the
positions held by Kenny Sharp and Dustin Duncan during the time of Plaintiff s employment, if
not previously provided. With these limitations, the Court overrules Defendant’s vagueness and
other objections.
RFP 33, 34: Denied as to all salary information. Plaintiff does not allege he was treated
differently than younger employees in terms of salary. Granted as to documents showing any
promotions or demotions of these employees. These documents may be produced pursuant to a
protective order. The date range is limited to Plaintiffs span of employment.
RFP 35: Moot. Defendant has represented it has no responsive documents.
RFP 37-38: Granted. Defendant shall produce all non-privileged responsive documents,
to the extent any have been withheld.

6

a21

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 7 of 12

RFP 42: Granted in part. Defendant shall provide responsive organizational charts that
were current and in existence during the time of Plaintiffs employment. Defendant may redact
other departments. With these limitations, the Court overrules Defendant’s vagueness and other
objections.
PRIV 0004, 0005, 0006: Plaintiff challenges whether these documents are subject to the
work product privilege. The privilege log reflects these are internal, pre-suit communications
between Defendant’s employees regarding Plaintiffs internal complaint three months prior to the
RIF. Defendant’s description is not sufficient to establish a “work product” privilege. Defendant
may either produce the documents, or submit the documents in camera to the Court for review,
along with an explanation via ex parte letter to the Court as to why these notes and memorandum
qualify for a work product privilege.
PRIV 290-291: Plaintiff challenges certain redactions of names from this email under the
“Pipe Engineer” heading. According to the privilege log, names are redacted to protect “personal
privacy information.” With respect to the redactions under the heading “Pipe Engineer,” any
interest in protecting these individuals’ names is outweighed by the importance of the information
to the case. Defendant shall produce the document without that redaction. Other redactions of
names of individuals in other departments may remain.
B.

Second Motion to Compel (ECF No. 30)

RFP 6, 7: Denied. Plaintiff seeks his former counsel’s correspondence with Defendant
for the purpose of explaining to the Court how former counsel “cheated” in relation to settlement
negotiations. See ECF No. 30 at 3. This is not relevant to claims or defenses asserted in this case.
RFP 9: Denied. Plaintiff has failed to show the relevance of Defendant’s communications
with “job recruiters” following his termination. This is further explained in Part III below.

7

a22

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 8 of 12

ROG 13: Denied. Plaintiff s request for all discrimination claims against Defendant for
the past eight years is facially overbroad and seeks irrelevant information.

Defendant has

adequately responded to this interrogatory by responding that there have been no discrimination
claims against Gump in the past three years.
ROG 14: Denied. Defendant adequately responded by referring to business records
previously produced regarding the May 2019 investigation, as permitted by Rule 33(d).
ROG 15: Denied. This request seeks “facts to support a termination of the Plaintiff after
he was terminated.”

This request is vague, but it appears to be aimed at attorney mental

impressions and other privileged information. Defendant will be required to disclose its witness
and exhibit lists in due course.
RFA 7, 8, 10, 12: Denied. These requests for admission are vague, confusing, and not
capable of being admitted or denied.
C.

Motions for Sanctions (ECF Nos. 24, 31)

Defendant has complied timely and in good faith to all discovery requests.

Further,

Defendant lodged good-faith objections to the discovery requests, although some were overruled
by the Court. The Court denies Plaintiffs motions for sanctions.
III.

Plaintiffs Motion to Compel Response to ICC Subpoena (within ECF No. 25 at 9)
According to Plaintiff, ICC employed him prior to his employment with Defendant. ICC

also offered Plaintiff a part-time job in January 2020, after his employment with Defendant ended.
ECF No. 25 at 2. The subpoena to ICC requests: (1) Plaintiffs employment documents and
information from March 1, 2018 to present; (2) ICC’s communications with “job recruiters” about
Plaintiff since September 1, 2019; and (3) ICC’s employees’ communications with Plaintiff since

8

a23

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 9 of 12

September 1, 2019. ECF No. 19-2. Plaintiff offered the following explanation as to the relevance
of these requests:
At the end of January, 2020, ICC wanted Plaintiff to sign a very “strange” parttime job contract. ICC specified about 20-40 hours per week for the part-time job
on that contract. However, Plaintiff found that NOW there are not any jobs
provided for Plaintiff to do. According to ICC’s reply, the part-time job will start
at the end of 2020 and next year 2021, and also the part-time job is based on future
“if’ and “assumption.” So, Plaintiff wondered why ICC needs Plaintiff NOW to
sign a future part-time job contract, why to specify 20-40 hours per week for the
job on that contract, but, no 20-40 hours per week jobs provided for Plaintiff to do
now; also, the jobs are based on future “if’ and “assumption,” i.e. the job is not
guaranteed. So, Plaintiff asked ICC Human Resources Director Ms. Jennifer Bean
a few times to confirm whether there were any third parties to inquire about
Plaintiffs employment information, or request ICC to help do something on
Plaintiff. However, ICC never answered Plaintiffs requests about a third party,
attaches [sic] as EXHIBIT “B.” After ICC refuses to reply to Plaintiffs requests
and questions, Plaintiff filed a third party Subpoena to ICC by certified mail [see
EXHIBIT “C”l. and served on Defendant by regular mail, respectively on February
18,2020.
ECF No. 25 at 2-3.
As an initial matter, the Court declines to quash the subpoena based on the two procedural
deficiencies raised by Defendant. With respect to Plaintiffs failure to provide notice prior to
serving ICC with the subpoena as required by Rule 45(a)(4), the Court finds no prejudice flowing
to Defendant from this technical violation and declines to quash the subpoena on this basis. See
Fujikura Ltd. v. Finisar Corp., No. 15MC80110HRLJSC, 2015 WL 5782351, at *4 (N.D. Cal.
Oct. 5, 2015) (collecting cases declining to quash subpoena where party does not suffer prejudice
from Rule 45 notice requirement). With respect to Plaintiffs failure to cause service to be effected
by someone who is “not a party,” as required by Rule 45(b)(1), the Court declines to quash the
subpoena on this basis. The clerk of court signed the subpoena, and Plaintiff completed the
subpoena and sent it via certified mail. Ordinarily, his attorney would have sent the subpoena, but
Plaintiff appears pro so. Based on Plaintiff s lack of attorney to send the subpoena on his behalf,

9

a24

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 10 of 12

lack of prejudice to any party, and ICC’s receipt of actual notice, the Court declines to quash the
subpoena based on this technical violation. Were the court to quash the subpoena on either
procedural basis, Plaintiff would likely re-serve the subpoena on ICC correcting these deficiencies,
thereby resulting in further costs and delay.

Plaintiffs motion to compel and substantive

arguments are before the Court, as are ICC’s written objections. The Court finds no need for
further briefing from ICC and elects to reach the merits of the motion to compel in the interest of
efficiency.
Plaintiff has failed to demonstrate the relevance of any documents requested from ICC.
Documents related to his former employment with ICC clearly have no relevance to the iissues
presented in this lawsuit. The Court also cannot discern any relevance of ICC’s communications
with job recruiters” regarding Plaintiff, or ICC’s recent communications with Plaintiff. It appears
Plaintiff is concerned that Defendant or other third parties have asked ICC to falsify records or
somehow interfere with this lawsuit. Plaintiff states that he wishes to “ascertain [whether] any
third parties . . . contact Plaintiffs former employer to inquire about Plaintiffs employment
information, or to request ICC to do something on Plaintiff against Federal Law or State Law.”
See ECF No. 25 at 10. This is an overly speculative fishing expedition for information that may
or may not exist and that has no discernible relevance to the current litigation. Accordingly,
Plaintiffs motion to compel responses from ICC is denied, and ICC need not respond to the
subpoena in any way.
IV.

Defendant’s Motion to Quash and for Sanctions/Protective Order (ECF Nos. 19, 20)
Defendant s motion to quash is denied for the reasons explained above, as the Court elects

to excuse procedural deficiencies and rule on Plaintiffs motion to compel on the merits.
Defendant also moved for sanctions or a protective order, based on threatening language in an

10

a25

Case 4:19-cv-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 11 of 12

email from Plaintiff to ICC’s in-house counsel.

Although Plaintiff contends he was only

threatening legal action, certain language could be viewed as threats to the safety of ICC and its
employees. See ECF No. 19-10 (“For ICC, the best way is immediately to issue all the documents
to me as I required. Perhaps, ICC and some ICC employees will be safe as long as ICC would like
to get an agreement with me.”). The Court will not countenance or tolerate any threatening
behavior, and Plaintiff may not use the discovery power of this Court to intimidate, harass, or
threaten third parties. If the Court becomes aware of any similar language or behavior by Plaintiff,
Plaintiff is expressly warned that dismissal of his lawsuit may be the selected sanction. At this
time, the Court declines to sanction Plaintiff but does issue a specific protective order as set forth
below.
V.

Conclusion
Plaintiffs motions to compel discovery from Defendant and for sanctions (ECF No. 22,

24, 30, 31) are granted in part and denied in part as set forth above.
Plaintiff s motion to compel responses to the ICC subpoena (ECF No. 25 at 9-10) is denied.
Defendant’s motion to quash (ECF No. 19) is denied.
Defendant’s motion for sanctions or protective order (ECF No. 20) is granted in part and
denied in part. Based on language in the email from Plaintiff to ICC’s counsel, the Court orders
Plaintiff to: (1) disclose to Defendant any other third-party subpoenas that have been issued, if
any; (2) seek leave of Court prior to issuing any further third-party subpoena; and (3) avoid any
threatening or harassing behavior to other third parties in conducting discovery or otherwise
prosecuting this case. Violations of this Order may result in sanctions, including dismissal.

11

a26

Case 4:19-CV-00554-JFH-JFJ Document 37 Filed in USDC ND/OK on 05/19/20 Page 12 of 12

Plaintiff shall confer with Defendant regarding RFP 15-19 no later than five days from the
date of this Order. Defendant shall produce supplemental documents no later than 30 days from
the date of this Order.
Defendant shall submit its ex parte letter, with attached documents, no later than 10 days
from the date of this Order, if desired.
SO ORDERED this 19th day of May, 2020.

Ms
______

vtojyAJl__*

J#FdAYP^P^
UNITED STATES DISTRICT COURT

12

a27

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20

Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
BO ZOU,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
LINDE ENGINEERING NORTH
AMERICA, INC.,
Defendant.

Case No. 19-CV-554-JED-JFJ

ORDER
Before the Court are several pending motions filed by pro se Plaintiff Bo Zou and
Defendant Linde Engineering North America, Inc. The motions primarily relate to a discovery
order entered by the Court on May 19, 2020 (“Discovery Order”). ECF No. 37.
I.

Plaintiffs Motions
A.

Motion for Sanctions Related to Plaintiffs Email to ICC (ECF No. 34)
(referred by ECF No. 43)

Plaintiff requests sanctions against Defendant for obtaining and filing an email Plaintiff
sent to third party ICC, because the email is protected by copyright law. This email was discussed
by the Court in the Discovery Order and relates to discovery in this lawsuit. See ECF No. 37 at
10-11. The Court finds no legal violations or otherwise sanctionable conduct by Defendant in
obtaining the email from ICC or filing it for the Court’s consideration. The motion for sanctions
is denied.
B.

Motion to Reconsider (ECF No. 38) (referred by ECF No. 43)

The Court granted Plaintiff s motion to compel in several respects and ordered Defendant
to supplement its document production.

Plaintiff now moves the Court to reconsider the

unfavorable aspects of the Court’s ruling. Plaintiff repeats arguments raised in the motion to

APPENDIX "E"

a28

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20

Page 2 of 4

compel and continues to allege Defendant has engaged in discovery misconduct and misled the
Court. ECF No. 38. Plaintiff has not shown that the Court misapprehended the facts, Plaintiffs
legal position, or the law governing the parties’ discovery disputes. Therefore, the Court denies
the motion to reconsider. See Servant of Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)
(explaining that a motion for reconsideration is appropriate where the court has misapprehended
the facts, a party’s position, or the controlling law).1
C.

Motions for Hearing and Translator (ECF No. 45) (referred by ECF No. 46)

Plaintiff requests an in-person, five-hour hearing on his motion to reconsider.2 In its
discretion, the Court declines to conduct a hearing on the motion to reconsider or permit any further
presentation of evidence related to the Court’s Discovery Order. Due to the Court’s denial of a
hearing, Plaintiffs request for a translator at the hearing is denied as moot.
D.

Motion to Strike and for Sanctions (ECF No. 59) (referred by ECF No. 61)

Plaintiff moves to strike Defendant’s response to the motion to reconsider (ECF No. 49),
because Defendant failed to serve the response on Plaintiff. Plaintiff admits that he received notice
of the response no later than June 19, 2020, four days after it was filed. Plaintiff filed a timely
reply that the Court has considered. ECF No. 65. Defendant’s response brief sets forth specific
facts and arguments relied on by the Court in denying Plaintiff s motion to reconsider, and the

To the extent Plaintiff seeks reconsideration based on the Court’s failure to await his reply brief
in support of his motion to compel, the Court has now fully considered such brief. See ECF No.
38-1. Upon consideration of the reply, the Court reaches the same result and finds no grounds for
reconsideration.
2 Plaintiff also requested a hearing on his motion to reassign the undersigned judicial officer. ECF
No. 41. That motion to reassign, and the corresponding request for hearing, are pending before
the district judge.
2

a29

Case 4:19-cv-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20

Page 3 of 4

Court finds no grounds for striking the document or sanctioning Defendant for any failure to serve
Plaintiff with this document. The motion to strike and for sanctions is denied.3
II.

Defendant’s Motions
A.

Motion for Entry of Protective Order (ECF No. 44) (automatic referral by
Northern District G.O. 05-09)

The Court expressly contemplated entry of a blanket protective order permitting Defendant
to designate certain documents as confidential. See, e.g., ECF No. 37 at 6 (compelling production
but stating documents may be produced pursuant to protective order). The Court finds that a
blanket protective order will facilitate discovery and the flow of information at this stage of the
proceedings. To the extent Plaintiff desires to challenge whether a confidentiality designation is
proper, Defendant’s proposed protective order permits such a challenge. See ECF No. 44-1 at ^ 7.
Accordingly, the motion for entry of a protective order is granted, and the Court will enter a
protective order in the form attached as Exhibit 1 to Defendant’s motion.
B.

b^°ECF n*" ^enSi°n of Time t0 Comply with Order (ECF No. 50) (referred

Defendant requests an extension of the supplemental production deadline set by the Court
in its Discovery Order. Defendant requests additional time to complete ESI searches and requests
that the Court postpone the deadline until entry of a protective order. There is no scheduling

order

in place, and Plaintiff has not shown any prejudice resulting from the extension. Defendant has
shown good cause for the requested extension. Defendant shall have five days from the date of
entry of the protective order to complete its production.

The Court finds no need to permit a response or reply brief before denying this motion.

a30

Case 4:19-CV-00554-JFH-JFJ Document 70 Filed in USDC ND/OK on 07/09/20

III,

Page 4 of 4

Conclusion
Plaintiffs motions addressed in this Order (ECF Nos. 34, 38, 45, 59) are DENIED.

Defendant’s motion for protective order (ECF No, 44) is GRANTED, and the Court enters
Defendant s proposed protective order this date; Defendant’s motion for extension of time (ECF
No. 50) is GRANTED, and Defendant shall have five days from the date of entry of the protective
order to complete its production.
The remaining motions pending before the undersigned (ECF Nos. 51,54,60) are not ripe
for review and will be ruled on by separate Order. In the Joint Status Report to be filed July 24,
2020, the parties shall state whether the remaining discovery disputes pending before

the

undersigned have been harrowed or resolved in any manner.
SO ORDERED this 9th day of July, 2020.

JF. JAYI^/l^IAG
RATE JUDGE
UNITED STATES DISTRICT COURT

4

a31

